MANDELBAUM, FITZSIMMONS, HEWITT & CAIN, P.A.
ATTORNEYS AT LAW
JOHN N. CAIN, Jr.
KEVIN J. FITZSIMMONS *
SCOTT K. HEWITT
BENJAMIN S. STRANZL
SAMUEL R. MANDELBAUM, LL.M.**

_______

Telephone (813) 221-0200

2111 SWANN AVENUE ■ SUITE 200
TAMPA, FLORIDA

Fax (813) 221-8558

_______

STEPHEN A. SPAID
NICOLAS E. FERREIRO

MAILING ADDRESS –

MICHAEL R. RAINEY
JOHN ARNETT

P.O. BOX 3373
TAMPA, FLORIDA 33601-3373

CHARLENE RAMUS-JAFFE

______
*

Orlando Office Address –
2499 OLD LAKE MARY RD. #142
SANFORD, FL 32771

Website -

www.ManFitzLaw.com

FLORIDA BAR BOARD CERTIFIED CIVIL TRIAL LITIGATOR

** ADMITTED FL & NY BARS;
FLORIDA BAR BOARD CERTIFIED CIVIL TRIAL LAWYER
FLORIDA BAR BOARD CERTIFIED INTERNATIONAL LAWYER

March 15, 2021

Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543

RE:

Application for Extension to File Brief in Opposition (Unopposed)
Huong L. Tran v. City of Holmes Beach et al;
Supreme Court Case no. SC # 20-881
Eleventh Circuit Appeal no. 19-13470
U.S. District Court no. 8:19-cv-534 (M.D.Fla.)

Dear Mr. Harris:
This law firm has previously noted our appearance in the above case as attorneys for Respondents
Florida Department of Environmental Protection (FDEP) and its Department Officials. FDEP is
a State of Florida government agency. Previously we had moved for a second extension of 14
days to file the FDEP’s brief in opposition, which was granted without opposition through March
19, 2021.
Pursuant to this Court’s Rule 30.4, Respondents FDEP and its Department Officials, by and
through undersigned counsel, would hereby respectfully request another extension of time for
seven (7) days, up to and including March 26, 2021, to file their brief in opposition to the Petition
for Writ of Certiorari (“Petition”). As grounds for the extension, Respondents would state:
1.
Respondent’s undersigned counsel received his second shot last week for the Covid
vaccine, and experienced unwelcome side effects, lethargy and a fever for a couple of days. As a
result, counsel found difficult to complete work and fell behind in some of his workload on this
and other cases.
2.
In addition, the FDEP’s agency counsel in Tallahassee has requested that their in-house
agency attorneys participate in the preparation of the brief in opposition, and be provided with a
draft of the proposed brief in advance of filing. Due to the undersigned’s recent health issue with
the vaccine, the preparation, transmission and finalization of said brief has been delayed.

Scott S. Harris, Clerk
March 15, 2021

- Page 2 -

3. In addition, undersigned counsel is currently handling several appeals in the state appellate
courts of Florida.
4. Further, this month Respondent’s counsel also has deadlines for complicated dispositive
motions and other pleadings in the U.S. District Court for the Middle District of Florida.
5. A proper brief in opposition to Petitioner’s lengthy and detailed petition will take
considerable time and effort. In light of the other briefs and complicated motions due within the
same approximate time period the brief in opposition is due, good cause exists for a seven (7) day
extension of time.
6. Undersigned counsel has communicated with the pro se Petitioner, Huong L. Tran, who has
indicated that Petitioners have no opposition to the seven (7) day extension of time requested by
the Florida Department of Environmental Protection and its Department Officials.
For the reasons stated herein, Respondents respectfully request that the time to file their Response
to the Petition in this case be extended by seven (7) days, up to and including March 26, 2021.
Respectfully Submitted,

_/s/ Samuel R. Mandelbaum, Esq._
Samuel Robert Mandelbaum, Esq.,
Member of this Court’s Bar
Florida Bar Number 270806
srm@manfitzlaw.com
Mandelbaum Fitzsimmons Hewitt & Cain, P.A.
Post Office Box 3373
Tampa, Florida 33601
Office: (813) 221-0200 ext. 105
Mobile: (813) 505-1322
Counsel for Respondents FDEP and its Department
Officials
cc:

Huong L. Tran, Petitioner pro se
103 29th Street
Holmes Beach, FL 34217

Jay Daigneault, Esq.
Trask Daigneault, LLP
1001 S. Fort Harrison Ave., Ste 201
Clearwater, FL 33756-3941
(Counsel for City of Holmes Beach, FL)

